                                CLOSEOUT FOR M91060034
                 z ?*
     This case +%-brought to the attention of OIG on May 7, 1991,    - - yb
 the complainan@*who is currently a faculty member a
            d       i      d not wish to lodge an a l l e g a z rather he was seeking information
 about the NSF Misconduct Regulation with regard to the failure of two collaborators of his to
 identify his NSF grants as funding sources in a journal article. The complainant told OIG
 that the article described, in prt,-research             by a graduate studdnt during the two
 year period that that student worked in the complainant's laboratory. That student's research
 was supported by the complainant's two NSF grants. The complainant told us that he had
 alerted the ethics committee at the collaborators' institution about this matter. That
 committee evaluated the allegation and found that no wrongdoing had occurred.

       The complainant stated that he was satisfied with the ethics commhee's findings and
   declined to identify the subjects in this case, for OIG. From the generalities provided by the
   complainant, OIG ten                                                , a faculty member at
-,                       and                           then a graduate      oJllllC
                                                                       student                  as
   the subjects of this case.

     Although the failure to acknowledge NSF support violates the grant conditions under
 which the complainant received his award, this alleged simple omission of NSF support by
 the complainant's collaborators is not misconduct in science. In the absence of further
 information from the complainant, including the specific identity of the subjects, OIG will
 not pursue this allegation further.

     We have closed this inquiry with a finding of no misconduct, and recognize that the
 complainant's actions have already alerted his collaborators to NSF's requirement for
 acknowledgment of grant support.




  Staff Scientist, Oversight

  Concurrence:


                                                                                       /z-/uLqz,

  Senior Scientist, Office of Oversight             Assistant Inspector General for Oversight


                               3 fie-P

  Deputy Counsel to the Inspector General

  cc:    Assistant Inspector General for Oversight
         Inspector General
